2311 Douglas Street

TN
COCKLE

Omaha, Nebraska 68102-1214
Est. 1923
1-800-225-6964
(402) 342-2831
Fax: (402) 342-4850
No.
STATE OF NORTH DAKOTA
Petitioner,

v.

UNITED STATES ENVIRONMENTAL
PROTECTION AGENCY, ET AL.,

Respondents.

CERTIFICATE OF COMPLIANCE

E-Mail Address:
contact@cocklelegalbriefs.com

Web Site
www.cocklelegalbriefs.com

As required by Supreme Court Rule 33.1(h), I certify that the PETITION FOR A WRIT OF
CERTIORARI in the above entitled case complies with the typeface requirement of Supreme Court

Rule 33.1(b), being prepared in New Century Schoolbook 12 point for the text and 10 point for the
footnotes, and this brief contains 8979 words, excluding the parts that are exempted by Supreme

Court Rule 33.1(d), as needed.

Subscribed and sworn to before me this 18th day of June, 2021.
I am duly authorized under the laws of the State of Nebraska to administer oaths.

GENERAL MOTARY-State of Nebraska
RENEE J, GOSS 9.
My Comm. Exp. September 5, 2023

Notary Public

Qudeaw-h, Globe

Affiant 41091
